App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ESTATE OF DAVID
MAURICE, JR.;
STACY MAURICE,

Nos. 18-55944, 18-55981,
18-56558

D.C. No. 5:16-CV-2610Plaintiffs-Appellees/ CAS-SP
Cross-Appellants,
MEMORANDUM*

v.

(Filed Feb. 5, 2020)

LIFE INSURANCE
COMPANY OF
NORTH AMERICA,
Defendant-Appellant/
Cross-Appellee.
Appeal from the United States District Court
for the Central District of California
Christina A. Snyder, District Judge, Presiding
Argued and Submitted January 24, 2020
Pasadena, California
Before: CLIFTON and LEE, Circuit Judges, and
BLOCK,** District Judge.
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Frederic Block, United States District
Judge for the Eastern District of New York, sitting by designation.

App. 2
Life Insurance Company of North America
(“LINA”) appeals the district court’s judgment in favor
of the Estate of David Maurice, Jr. (“Maurice”), as well
as its post-judgment order awarding attorneys’ fees
and costs. We assume familiarity with the facts, procedural history, and issues on appeal.
The policies here do not provide coverage “if a
preexisting condition substantially contributed to the
disability.” McClure v. Life Ins. Co. of N. Am., 84 F.3d
1129, 1136 (9th Cir. 1996). “The word ‘substantial’ is
used to denote the fact that [the condition] has such
an effect in producing the harm as to lead reasonable
men to regard it as a cause, using that word in the popular sense, in which there always lurks the idea of responsibility, rather than in the so-called ‘philosophic
sense,’ which includes every one of the great number
of events without which any happening would not have
occurred.” Dowdy v. Metro. Life Ins. Co., 890 F.3d 802,
809 (9th Cir. 2018) (quoting Restatement (Second) of
Torts § 431 cmt. a (Am. Law Inst. 1965)). “For a court
to distinguish between a responsible cause and a ‘philosophic,’ insignificant cause, there must be some evidence of a significant magnitude of causation. Such
evidence need not be presented with mathematical
precision, but must nonetheless demonstrate that a
causal or contributing factor was more than merely
related to the injury, and was instead a substantial
catalyst.” Id.
Although the district court cited the correct legal
principles, its application of them to the facts was
clearly erroneous. The district court found that

App. 3
Maurice cut his feet on glass in a swimming pool; that
finding is supported by the record. However, Maurice’s
own medical expert explained that diabetes prevented
the cuts from healing properly and exacerbated the
risk of infection. Once the cuts became infected, diabetes made it more difficult to fight the “bacterial onslaught”—even with the assistance of antibiotics—
allowing the infection to reach the bone. Eventually,
the only way to stop the infection from spreading was
amputation. The effect of diabetes is far more extensive and better-documented here than it was in Dowdy.
The conclusion is inescapable that Maurice’s diabetes
“substantially contributed” to the amputation.
We reject the argument that diabetes had to be
the predominant cause of the amputation. It is an incorrect statement of federal common law. Our cases
expressly note that where, as here, the policy language
is conspicuous, a preexisting condition can bar coverage “even though the claimed injury was the predominant or proximate cause of the disability.” Dowdy, 890
F.3d at 808 (quoting McClure, 84 F.3d at 1136).1 The
rule under California law is different, see, e.g., Slobojan
v. W. Travelers Life Ins. Co., 450 P.2d 271, 278 (Cal.
1969), but it is preempted, see McClure, 84 F.3d at 1133
(citing Evans v. Safeco Life Ins. Co., 916 F.2d 1437, 1439
(9th Cir. 1990)). We disagree that recent Supreme
1

An inquiry into a single predominant or proximate cause is
necessary if the policy language is inconspicuous. See McClure, 84
F.3d at 1136 (“[I]f the language is inconspicuous, a policy holder
reasonably would expect coverage if the accident were the predominant or proximate cause of the disability.”). Maurice concedes that LINA’s policy language was conspicuous.

App. 4
Court cases call Evans into question. The Supreme
Court has never questioned that uniform rules of policy interpretation are an essential part of the “federal
common law of rights and obligations under ERISAregulated plans.” Pilot Life Ins. Co. v. Dedeaux, 481 U.S.
41, 56 (1987).
Our disposition of the coverage issue makes it unnecessary for us to address Maurice’s cross-appeal regarding the amount of coverage. In addition, it
requires us to vacate the award of attorneys’ fees and
costs.
JUDGMENT REVERSED; ORDER AWARDING
ATTORNEYS’ FEES AND COSTS VACATED; REMANDED WITH INSTRUCTIONS TO ENTER
JUDGMENT FOR LINA.

App. 5
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
ESTATE OF DAVID MAURICE, No. 5:16-CV-02610JR. AND STACEY MAURICE, CAS(SPx)
FINDINGS OF
FACT AND
– v. –
CONCLUSIONS
LIFE INSURANCE COMPANY OF LAW
OF NORTH AMERICA;
(Filed Jun. 4, 2018)
SOUTHERN CALIFORNIA
EDISON COMPANY
EMPLOYEE BENEFIT PLAN;
DOES 1 THROUGH 10,
INCLUSIVE,
Plaintiff,

Defendant.
This matter was tried to the Court on December 6,
2017. Michael Horrow appeared for Stacey Maurice
and the Estate of David Maurice, Jr. (collectively,
“plaintiffs”), and Keiko Kojima appeared for defendant
Life Insurance Company of North American (“LINA”)

App. 6
I.

FINDINGS OF FACT
A. David Maurice’s Health History and Insurance Coverage

1. David Maurice (“Maurice”) was a long-term
employee of Southern California Edison (“SCE”). He
began working at SCE in November 1997. AR 642.1
2. Maurice, who was 41 at the time of his death
in 2015, had been diagnosed with Type I diabetes in
his twenties as a result of chemotherapy and a splenectomy to treat Hodgkin’s lymphoma as a child. AR
712-1406; 1050; 1052-1053; 1125; 2332. Maurice’s diabetes was uncontrolled. AR 859; 1028; 1048; 1050;
1052-1053.
3. Maurice’s diabetes led to diabetic foot neuropathy, which is a common nerve disorder caused by diabetes that results in pain or loss of feeling in the toes
or feet. AR 2332; see Engstrand v. Colvin, 788 F.3d 655,
657 (7th Cir. 2015).
4. Maurice dealt with a number of underlying
medical conditions. He had a history of Hodgkin’s disease, Castleman’s disease, rectal cancer, colon cancer,
congestive heart failure, hypertension, obesity, renal
failure, and aortic stenosis. AR 1050; 1096; 381-392;
2327-2342.
5. Because of his employment with SCE, Maurice was entitled to obtain a group Accidental Death
1

Citations to “AR” refer to the administrative record established in connection with the insurance claim process and admitted into evidence in this action by stipulation of the parties.

App. 7
and Disability (“AD&D”) insurance policy from LINA.
Maurice was insured under two AD&D policies—the
first policy provided basic coverage, AR 141 (the “Basic
Policy”), and the second policy provided voluntary
AD&D coverage, AR 13 (the “Voluntary Policy”).
6. Both AD&D policies provided a schedule of
benefits for various covered losses. In the event of a
“Loss of One Hand or Foot,” the Policies provided a benefit of “50% of the Principal Sum.” AR 13; 141.
7.

The Policies both define a Covered Accident

as:
A sudden, unforeseeable, external event that results, directly and independently of all other
causes, in a Covered Injury or Covered Loss and
meets all of the following conditions:
1.

Occurs while the Covered Person is insured under this Policy;

2.

Is not contributed to by disease, Sickness,
mental or bodily infirmity;

3.

Is not otherwise excluded under the
terms of this Policy.

AR 15; 143.
8. Both AD&D policies contain the following exclusion:
COMMON EXCLUSIONS
In addition to any benefit-specific exclusions, benefits will not be paid for any Covered Injury or

App. 8
Covered Loss, which, directly or indirectly, in
whole or in part, is caused by or results from any
of the following unless coverage is specifically provided for by name in the Description of Benefits
section:
4.

illness or disease.

AR 20; 148.
9. The Policies further provide under the “Time
Period for Loss” provision that “Any Covered Loss must
occur within: 365 days of the Covered Accident.” AR 13;
141.
10. The Schedule of Benefits states the following
with respect to the benefit amount:
“Principal Sum, when referred to in this
Schedule, means the Employee’s Principal Sum in effect on the date of the Covered Accident causing the Covered
Injury or Covered Loss unless otherwise
specified.”
AR 13; 141 (emphasis in original).
11. The AD&D policies pay 100 percent of the
Principal Sum for loss of life and 50 percent for loss of
one foot. AR 13; 141.
B. Maurice’s 2015 Amputation and Insurance Claim
12. On April 30, 2015, Maurice underwent a below-the-knee amputation on his left leg. AR 500. The

App. 9
amputation was necessary because a wound in Maurice’s foot failed to heal. AR 497. This amputation is the
loss for which Maurice sought benefits under the
AD&D policies.
13. On October 10, 2015, Maurice submitted a
written claim for benefits, stating on the claim form
that an unhealed wound necessitated the amputation,
which was allegedly caused by an accident that occurred on May 22, 2008. AR 642. Maurice states on his
claim form that “on 5/22/08 at approx. 8 pm while
swimming in a hotel swimming pool I cut both feet on
broken glass in the bottom of the pool.” AR 643.
14. On the October 10, 2015 claim form, Maurice
(1) provided a physician’s statement from family practitioner Dr. Sunnyline Vendiola, who stated that the
April 2015 amputation was the result of the May 2008
swimming pool injury, AR 646; and (2) identified the
physicians and facilities where he received treatment
for his injury. LINA wrote to these providers to obtain
the relevant medical records. AR 644-45; 449; 446; 495;
559; 575.
C. Maurice’s 2008 Injury and Ensuing
Medical Treatment
15. After allegedly cutting his feet on glass in a
hotel swimming pool on May 22, 2008, Maurice sought
treatment from Dr. Prem Salhotra. However, LINA
was unable to obtain medical records from Maurice’s
2008 to early 2009 treatment with Dr. Salhotra, as

App. 10
Dr. Salhotra’s office had purged these files by the time
LINA reviewed Maurice’s claim. AR 644; 366.
16. According to a history compiled by David and
his wife, Stacey Maurice (“S. Maurice”), Maurice regularly saw Dr. Salhotra between May 2008 and June
2009 for “non-healing cuts to his feet.” When it appeared that the foot had become infected, Maurice was
referred for an MRI. AR 1667.
17. An MRI was performed on September 16,
2009. It revealed that Maurice had osteomyelitis, a
rare and serious infection, in the bone of his left big toe.
AR 896. Dr. Nalam treated Maurice for this infection
and made an incision, inserted a drain, and started
Maurice on antibiotics. Due to increased swelling and
pain on Maurice’s left foot, Maurice was soon admitted
to the Desert Regional Medical Center (“Desert Regional”). AR 1125.
18. At Desert Regional, Maurice saw Dr. Kama
on October 9, 2009. Maurice reported that he had been
experiencing foot ulcers for the past two years; Dr.
Kama’s notes do not reference the May 2008 glass accident. AR 1125. Dr. Kama administrated antibiotics
intravenously, and referred Maurice to physical therapy for wound evaluation and care. AR 1127; 1129. The
physical therapist reported that “[Maurice’s] [left]
great toe wound is beyond P.T. wound care scope of
practice” and recommended referral to a surgeon. AR
1129.
19. On November 5, 2009, Maurice consulted
with Dr. Stabile, a surgeon, who stated that Maurice

App. 11
had an “open wound on the medial border of the IP [interphalangeal] joint of the foot.” AR 1108. In his consultation note, Dr. Stabile noted that “[d]iabetes has
been hard, difficult to control because of infection. This
started with a small blister from shoe wear and is progressed and continues to be difficult.” Id. He opined
that radiographs showed Maurice’s interphalangeal
joint was destroyed, and recommended amputation of
the big toe on Maurice’s left foot. AR 1008-98.
20. The following day Maurice obtained a second
opinion from Dr. James Bell, who “agree[d] with Dr.
Stabile that amputation is the better course of treatment at this point in time.” AR 1105. Dr. Stabile performed the amputation on November 10, 2009. AR
1119.
21. Despite the amputation, Maurice’s wound
did not heal. On December 23, 2009, Dr. Stabile observed “new onset early necrosis” at the “distal tip of
the second digit,” and also observed swelling in the toe
and nail, which “looks like it is starting to detach.” AR
1090. A peripherally inserted central catheter (“PICC”)
line was inserted to allow antibiotics to be delivered to
the infected location. AR 1020.
22. Over the course of 2010, Maurice met regularly with Dr. Russo for care and treatment of the
wound and obtained assistance from nurses who provided him home health care.
23. A microbiology report on July 5, 2010 showed
the presence of streptococcus agalactiae and
coryneform bacteria in Maurice’s left foot. AR 1818. On

App. 12
July 13, 2010, Maurice purchased the antibiotic
ZYVOX, and on July 30, 2010, he rented a “wound vac”
to assist in treating the wound. AR 1829; 1850.
24. Maurice sought treatment from Dr. Salhotra
on October 18, 2010 for the wound, and additional
treatment from Dr. Kerkar on November 3, 2010. AR
1868; 1870. Despite this care, Maurice continued to
have a worsening infection on his left foot. AR 1031.
25. In January 2011, Maurice was admitted to
Desert Regional with swelling in his left foot. AR 1023.
On January 11, 2011, Dr. Stabile observed that Maurice’s left foot continued to be infected and that x-rays
showed destruction of the “fifth metatarsal head and
subluxed phalange on that side.” AR 1024. On January
17, 2011, pathology identified gangrene in Maurice’s
left foot. AR 1887.
26. On January 13, 2011, Dr. Stabile performed
a “transmetatarsal amputation” to halt the spread of
the bone infection. AR 1035.
27. Maurice saw Dr. Stabile again on February
24, 2011. Dr. Stabile observed that the wound needed
cleaning, and that Maurice had a high risk of wound
healing issues. AR 1017.
28. On March 1, 2011, Dr. Stabile performed another procedure on Maurice’s left foot—he debrided the
skin, subcutaneous tissue and bone, and applied a
wound vac. AR 1016. Maurice continued to have home
health for the wound care. AR 1980; 1986.

App. 13
29. On April 30, 2011, Maurice went to the Desert Regional emergency room due to worsening redness, swelling, and deterioration of the wound on his
left foot. AR 988. On June 29, 2011, Dr. Stabile opined
that Maurice needed further debridement and skin
grafting, and on August 2, 2011, Dr. Peter Jamieson
performed a debridement and “skin graft to the left
foot wound.” AR 961. Maurice followed up with regular
care at Morongo Medical and with Dr. Russo, in addition to home nursing care.
30. During November 2012 through December
2013, Maurice had more extensive wound care from
physicians and physical therapists at Desert Regional.
During this period he regularly visited his primary
care physician, Dr. Salhotra. AR 907.
31. On January 30, 2014, Dr. Jamieson conducted another skin graft to the wound. AR 904. On
March 26, 2014, Dr. Jamieson concluded that the prior
graft failed, and determined to try a thicker graft. AR
2237.
32. Dr. Jamieson met again with Maurice on May
16, 2014 and concluded that the new graft did not take.
AR 2246. Dr. Jamieson recommended that Maurice try
hyperbaric O2 treatment, of which Maurice completed
11 treatments by July 10, 2014. AR 1677.
33. On August 1, 2014, Maurice transferred to
Eisenhower Medical Center for his wound care. AR
2259.

App. 14
34. On August 28, 2014, Maurice met with Dr.
Peterson at Eisenhower’s wound care clinic. AR 2266.
She observed that Maurice had difficulty walking due
to his unhealed wound, was in great pain, and was
taking narcotics. AR 2266; 2268; 2294; 2298.
35. In November 2014, Maurice learned that he
had colon cancer and was admitted to Desert Regional.
Maurice was diagnosed with Stage I colon cancer and
underwent a bowel resection. AR 471.
36. On April 22, 2015, Maurice consulted with
Dr. Yu, who determined that the bones of Maurice’s left
foot were infected. AR 497. Dr. Yu also noted that he
had severe aortic stenosis and needed an aortic valve
replacement, but that this replacement could not be
done due to the infection. AR 497.
37. Dr. Yu determined that a below-the-knee amputation was required, and on April 30, 2015 he amputated Maurice’s left foot and lower leg. AR 500.
38. On December 20, 2015, Maurice passed away
at the age of 41. AR 1666. The death certificate states
that Maurice’s immediate cause of death was ventricular fibrillation, with congestive heart failure and aortic stenosis identified as other leading causes of death,
and with Castleman’s disease, diabetes mellitus, and
hypertension listed as significant conditions contributing to death. AR 1666.
39. S. Maurice proceeded with the AD&D claim
as Maurice’s wife and the Executrix of Maurice’s estate. AR 395.

App. 15
D. Maurice’s AD&D Claim and Appeals
Process
40. On January 12, 2016, S. Maurice emailed
LINA to inform it of Maurice’s death, and to ask for an
update on his claim. AR 396.
41. On January 27, 2016, LINA requested a “peer
review” from a specialist in internal medicine, Dr.
Mark Levin. In a February 4, 2016 report, Dr. Levin
provided a detailed history of Maurice’s non-healing
foot wound and the attempts by his physicians to address this problem, which led to amputation. AR 26372. He concluded that the May 2008 injury, where
Maurice allegedly cut his foot on glass, resulted in
“multiple surgical interventions” and, eventually, the
below-knee amputation. AR 391. Dr. Levin opined that
Maurice’s pre-existing diabetes was a contributing factor, and that “[t]he injury that occurred in 2009 would
have[,] [to] a great extent of degree[,] [ ] contributed to
the claimant’s multiple surgical interventions and
health issues.” AR 273.
42. On February 24, 2016, LINA invited Dr.
Levin to provide the evidence that supports the conclusion that Maurice suffered the claimed accidental cuts
on his feet on May 22, 2008. AR 369. LINA also asked
Dr. Levin whether the amputation “resulted directly
and independently, (from accidental injury), of all other
causes and was not significantly contributed to by sickness, disease or bodily infirmity.” AR 369.
43. On February 26, 2016, Dr. Levin provided an
addendum to his earlier report. He opined that the

App. 16
evidence supporting the May 2008 injury was subjective, and that the claimant’s “subjective report of the
injury was obtained from submitted referral information.” AR 374. Dr. Levin also concluded that diabetes was “a contributor to the claimant’s” amputation.
AR 375.
44. On March 10, 2016, LINA denied Maurice’s
claim for AD&D benefits for three reasons: (1) LINA
doubted the injury had ever occurred, AR 355; (2) LINA
concluded that Maurice’s various illnesses contributed
to the loss of his leg, AR 355; and (3) based on policy
language, the loss had to occur within 365 days of the
2008 accident, AR 355.
45. S. Maurice appealed LINA’s decision on August 24, 2016. AR 1407-1679.
46. On appeal, S. Maurice addressed LINA’s
doubt regarding the May 2008 injury by providing nine
declarations attesting to Maurice’s statements as to
the 2008 glass injury from (1) S. Maurice, AR 1434;
(2) Robert Haines, a former co-worker, AR 1451-52;
(3) Linda Ross, S. Maurice’s mother, AR 1418-19; 1427;
(4) Lance Larson, a former co-worker, AR 1453; (5) Jacob Ross, S. Maurice’s brother, AR 1428-29; (6) Jason
Ross, S. Maurice’s brother, AR 1431; (7) Pat Ferror, a
former co-worker, AR 1450; (8) Kevin Jakubczak, a
close family friend, AR 1444-45; and (9) Nena
McCullough, a former co-worker, AR 1448.
47. S. Maurice also submitted an expert report
by Dr. Jeffrey Galpin, who is board certified in internal
medicine and infectious diseases. AR 2327. After

App. 17
reviewing the medical evidence and witness statements, Dr. Galpin opined that there is a “direct link beginning with the accident at the hotel, which became
the center and focus of an acute and then chronic infection that led to losing his left lower leg.” AR 2337.
He opined that Maurice’s diabetes was a contributing
factor and that it made Maurice less likely to immediately recognize the severity of his cuts and hindered
the wound’s healing and Maurice’s ability to fight infections. AR 2337-38. Dr. Galpin further opined that
the injury initiated the process leading to the amputation, though he did not consider the role of foot ulcers,
specifically, as part of his analysis. AR 2327-2342. Dr.
Galpin also considered how diabetes generally affected
Maurice’s ability to recover from the alleged 2008 glass
injury. AR 2338.
48. In response, LINA engaged Dr. Dorothy Low
to re-review the file. AR 302. LINA asked Dr. Lowe to
“review the medical and advise if Mr. Maurice’s illness
or diseases significantly contributed to the need for the
04/30/2015 amputation.” AR 311. Dr. Lowe opined that
Maurice’s diabetes “significantly contributed to his
need for left below knee amputation on 4/30/2015.” AR
311. Dr. Lowe also questioned whether there was a
May 2008 accident, and noted that statements by the
patient, family members, and witnesses “do not qualify
as direct medical evidence.” AR 310.
49. On October 20, 2016, LINA upheld its denial
of the claim. AR 280–290. LINA advised that a second,
voluntary level of appeal was available. AR 290. Plaintiffs instead filed this lawsuit.

App. 18
II.

CONCLUSIONS OF LAW
A. De Novo Review Applies

1. The parties have stipulated to a de novo standard of review.
2. Under a de novo standard, the Court must determine whether benefits were correctly denied based
on the evidence in the Administrative Record. Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101, 115
(1989). The Court reviews the claim by interpreting the
governing plan documents without deferring to either
party’s interpretation. Id. at 112–13.
3. “[W]hen the court reviews a plan administrator’s decision under the de novo standard of review, the
burden of proof is placed on the claimant.” Muniz v.
Amec Construction Mgmt., Inc., 623 F.3d 1290, 1294
(9th Cir. 2010). Plaintiffs must demonstrate entitlement to policy benefits by a preponderance of the evidence. Armani v. Nw. Mut. Life Ins. Co., 840 F.3d 1159,
1163 (9th Cir. 2016); Wiley v. Cendant Corp. Short
Term Disability Plan, No. 09-CV-00423-CRB, 2010 WL
309670, at *7 (N.D. Cal. Jan. 19, 2010).
B. Applicable Legal Standards
4. The Ninth Circuit has held that ERISA
preempts state common-law rules related to interpretation of employee benefit plans Dowdy v. Metro Life
Ins. Co., No. 16-15824, 2018 WL 2223722, at *4 (9th
Cir. May 16, 2018); McClure v. Life Ins. Co. of N. Am.,
84 F.3d 1129, 1133 (9th Cir. 1996) (citing 29 U.S.C.

App. 19
§ 1144(a); Evans v. Safeco Life Ins. Co, 916 F.2d 1437,
1439 (9th Cir. 1990)). While ERISA’s “savings” clause
exempts from preemption “any law of any state which
regulates insurance,” 29 U.S.C. § 1144(b)(2)(A), “state
laws of insurance policy interpretation do not qualify
for the saving clause exception and are preempted.” Id.
(citing Evans, 916 F.2d at 1440). Instead, “the interpretation of ERISA insurance policies is governed by a
uniform federal common law.” Id. at 1439.
5. The Ninth Circuit in McClure considered policies that contained substantially identical policy language to the language provided in the AD&D policies
at issue here. Like Maurice’s policies, the policies in
McClure ensured “against loss resulting directly and
independently of all other causes from bodily injuries
caused by accident.” McClure, 84 F.3d at 1132 (emphasis added); see AR 15; 143. The Ninth Circuit noted
that other federal circuits, such as the Fourth Circuit,
refused to enforce this “directly and independently”
language on public policy grounds, given that this language—interpreted literally—would “nullify the benefits an insured could expect from a policy in a large
number of instances.” Id. at 1135. The Court of Appeals
held that insofar as policy language such as this is conspicuous to the insured, recovery of benefits under the
policy is barred if a preexisting condition “substantially contributed” to the disability, and that state law
rules of interpretation providing for a broader coverage

App. 20
were preempted.2 Id. at 1136; see Dowdy, 2018 WL
2223722, at *4.
6. For a pre-existing condition to be considered a
“substantial” contributing factor for the purpose of restricting coverage to “direct and sole causes” of the
injury, the pre-existing condition “must be more than
merely a contributing factor,” and that a relationship
of “undetermined degree is not enough.” Dowdy, 2018
WL 2223722, at *5 (quoting Adkins v. Reliance Standard Life Ins. Co., 917 F.2d 794 (4th Cir. 1990)) (emphasis added). In Dowdy, the Ninth Circuit—citing to
the Restatement (Second) of Torts—observed that a
“substantial cause” denotes the “idea of responsibility.”
Id. To ascertain a substantial cause,
[T]here must be some evidence of a significant
magnitude of causation. Such evidence need
not be presented with mathematical precision, but must nonetheless demonstrate that
a causal or contributing factor was more than
merely related to the injury, and was instead
a substantial catalyst.
Id. Consistent with federal common law construing
coverage provisions in a manner that does not unreasonably limit coverage, the Policies will afford coverage
to plaintiffs unless Maurice’s pre-existing diabetes
“substantially contributed” to his 2015 amputation.
See id. at *6.

2

Plaintiffs agree that the language contained in the AD&D
policies at issue here is sufficiently conspicuous. Dkt. 48 at 4, n.1.

App. 21
C. Discussion
7. According to LINA’s AD&D policy language,
the Policies provide benefits for covered losses that are
“the result, directly and independently of all other
causes, of a Covered Accident.” AR 15; 143. As stated
supra, a “Covered Accident” is defined in both policies
as “[a] sudden, unforeseeable, external event that results, directly and independently of all other causes, in
a Covered Injury or Covered Loss and meets all of the
following conditions:
1.

occurs while the Covered Person is
insured under this Policy;

2.

is not contributed to by disease, Sickness, mental or bodily infirmity;

3.

is not otherwise excluded under the
terms of the Policy.” AR 15; 143. As
noted, LINA and plaintiffs agree that
this policy language is conspicuous.

8. Using the Ninth Circuit’s substantial cause
test, the Court must look to the administrative record
to determine whether Maurice’s diabetes was a substantial contributing factor of his 2015 amputation.
See Dowdy, 2018 WL 2223722, at *5. In light of a disagreement between the parties as to the sufficiency of
evidence supporting the occurrence of the alleged 2008
swimming pool accident, the Court must first determine whether a preponderance of the record evidence
demonstrates that the 2008 swimming pool accident
occurred.

App. 22
9. The Ninth Circuit has noted that, in conducting a de novo review of a plan administrator’s decision
to deny benefits, a court may consider evidence normally inadmissible under the strict rules governing
admissibility of evidence in a civil trial, as long as that
evidence is “relevant, probative, and bears a satisfactory indicia of reliability.” Tremain v. Bell Industries,
Inc., 196 F.3d 970, 978–79 (9th Cir. 1999) (citing Mongeluzo v. Baxter Travenol Long Term Disability Ben.
Plan, 46 F.3d 938, 941, 943 n.2); see Grosz-Salomon v.
Paul Revere Life Ins. Co., No. 98-CV-7020-DDP-RNBX,
1999 WL 33244979, at *4 (C.D. Cal. Feb. 4, 1999), aff ’d,
237 F.3d 1154 (9th Cir. 2001) (“The Court must review
the entire administrative record in these cases. . . . The
plan administrator, however, is not bound by the Federal Rules of Evidence. The Court does not believe that
it would be proper to exclude materials upon which the
administrator relied because these materials as presented to the Court might not be admissible at trial
without further documentation or verification.”).
10. Here, LINA indicated in its denial of plaintiffs’ appeal that it reviewed the nine declarations that
S. Maurice submitted, which attested to the occurrence
of Maurice’s 2008 swimming pool accident. AR 0282.
Having reviewed these declarations, the Court concludes that they satisfy the requirements set forth in
Tremain. The declarations are relevant and probative
insofar as they attest to the occurrence of the 2008 accident, and the declarations appear reliable insofar as
they were averred under penalty of perjury and insofar
as nothing in the record suggests these declarations to

App. 23
be otherwise unreliable. AR 1425; 1430; 1432; 1443;
1447; 1449; 1450; 1452; 1454. Moreover, because these
declarations constitute part of the administrative record—given that LINA reviewed them as part of plaintiff ’s appeal—the Court is obligated to review them as
part of its de novo review of the record. See Silver v.
Exec. Car Leasing Long-Term Disability Plan, 466 F.3d
727, 733 (9th Cir. 2006) (observing that when district
courts conduct de novo review, they have a responsibility under the ERISA framework to undertake an independent and thorough inspection of an administrator’s
decision).
11. As LINA points out, there are no contemporaneous medical records documenting the alleged broken glass incident and resulting cuts to Maurice’s feet.
His physician at the time of his 2008-2009 treatment,
Dr. Salhotra, had purged Maurice’s 2008 and early
2009 medical records by the time LINA requested
these records in 2016. Available medical records from
October 2009 demonstrate that Dr. Kama noted Maurice reported “ulcers on his lower extremities related
to his diabetes for approximately the past 2 years and
[he] has been seeing podiatry. Approximately 2 months
ago, he noticed that he had [an] ulcer on the lateral
aspect of his big toe on the outer aspect.” AR 1125. November 2009 notes from Dr. Stabile also reflect that an
“infection started with a small blister from shoe wear.”
AR 1108.
12. However, despite the lack of contemporaneous
medical records, record evidence does exist that supports the occurrence of the 2008 swimming pool

App. 24
accident. Along with Maurice’s claim for benefits in
2015, Dr. Vendiola submitted a statement that Maurice’s injury occurred “swimming in [a] hotel pool and
cut both foot on glass in pool.” AR 0646. In addition, as
noted, S. Maurice submitted nine declarations on appeal—all of which provide accounts of various individuals’ knowledge of the swimming pool accident. Linda
Ross, S. Maurice’s mother, attests that after she met
Maurice in 2008, she immediately noticed he was limping; after she had known Maurice for a few weeks, he
explained that he cut his feet in a swimming pool during a training event for his job with SCE and that the
cuts had still not healed. AR 1418. S. Maurice and her
two brothers similarly attest to Maurice’s limp and explanation about the swimming pool accident. AR 1430;
1432; 1443. Nena McCullough, Maurice’s coworker at
SCE, attests that after he returned from SCE training,
Maurice told her about the swimming pool accident,
and thereafter she and another coworker, Robert
Haines, urged him to report his injuries to his supervisor and file a worker’s compensation claim. AR 1448.
McCullough testifies that Maurice became upset at the
idea of reporting, as he was worried about keeping his
job because he was no longer a union member. Id.
Haines echoes McCullough’s remarks and attests that
after Maurice returned from training, he told Haines
that he had cut his feet on broken glass in the swimming pool. AR 1451. Haines urged him to make a
worker’s compensation claim. Id. Likewise, Pat Ferro
testifies that he met Maurice as a firefighter for the
California Department of Forestry, and that when he
heard Maurice was in the hospital in 2015, he went to

App. 25
visit him. AR 1450. During Ferro’s visit, Maurice told
him that the loss of his leg stemmed from an injury to
his feet when he cut them on broken glass in a swimming pool. Id. Lance Larson also went with Ferro to
visit Maurice in 2015, and submitted a declaration
attesting to Maurice’s assertion that the loss of his
leg stemmed from an injury to his feet when he accidentally cut them on broken glass. AR 1453.
13. LINA contends that plaintiff cannot establish that Maurice’s amputation occurred due to the
broken glass injuries as opposed to his naturally-occurring foot ulcers, and argues that the medical records
contain the best evidence to corroborate or invalidate
the existence of the 2008 swimming pool accident.
Though Dr. Stabile’s notes reflect that Maurice had an
ulcer on his foot stemming from shoe wear, Dr. Kama’s
notes reflect the presence of ulcers for approximately
two years prior—a finding not inconsistent with the
prior glass lacerations and resulting injury and infections. Moreover, the nine separate declarations, submitted under the penalty of perjury, further support
the likelihood that Maurice suffered lacerations to his
feet, which never healed, as a result of stepping on broken glass in a swimming pool in 2008. In addition,
neither Dr. Lowe nor Dr. Levin, LINA’s experts, opine
that diabetes-related ulcers were instead responsible
for the eventual amputation. AR 310–312; AR 0391–
92. Dr. Lowe opines that no direct medical evidence
supports the existence of the 2008 wounds, and that
Maurice’s “uncontrolled diabetes mellitus significantly contributed to his need for left below knee

App. 26
amputation,” although she does not specifically opine
as to the cause of Maurice’s left foot injuries. AR 311.
Instead, Dr Lowe discusses how Maurice’s diabetes
may have caused him not to feel “an injury to his feet
until he developed an infection.” AR 311–312. In Dr.
Levin’s initial report for LINA, he appears to assume
that the 2008 wounds occurred by opining that “[t]he
injury that occurred in 2008 would have[,] [to] a great
extent of degree[,] [ ] contributed to claimant’s multiple
surgical interventions and health issues,” and also that
“the claimant’s wounds are directly related to both the
injury to his feet and his poorly controlled diabetes.”
AR 0391. In his second report, and in response to
LINA’s question as to whether evidence supporting
the 2008 injuries is objective or subjective in nature,
Dr. Levin opines that the evidence is subjective. AR 374.
14. Dr. Galpin, plaintiffs’ expert, also assumes
that the 2008 wounds occurred, even while separately
acknowledging the existence of ulcers when Maurice
was admitted to the hospital on October 8, 2009, noting
that he “had developed swelling of his left great toe different than his chronic pain and swelling had been,”
and that, in 2014, Maurice had a “diabetic ulcer to the
left foot.” AR 2334; 2335. Dr. Galpin goes on to conclude
that the 2008 lacerations from the glass were “more
than enough to light the wick that eventually cost him
his [below knee] amputation,” and that the 2008 lacerations were “more likely than not, the cause of [Maurice’s] left below-the-knee amputation.” AR 2341–2342.
Dr. Galpin also opines that the injuries to Maurice’s
right foot “did heal, and that did well with the

App. 27
declaration and descriptions that the left foot had the
far more severe glass injury initially.” AR 2329. Significantly, none of the parties’ experts opine that there
is any evidence that Maurice suffered from ulcers before the 2008 swimming pool accident. Accordingly,
although it appears that no “direct” medical evidence
exists—in the form of contemporaneous doctor’s
notes—to verify the 2008 accident, the Court finds that
the physician’s statement from Dr. Vendiola, the nine
declarations from Maurice’s various family, friends,
and coworkers, and the expert reports demonstrate
that it is more likely than not that the 2008 swimming
pool accident occurred.
15. Because the Court finds that plaintiffs satisfy their burden of demonstrating that it is more
likely than not that the 2008 accident occurred, the
Court next addresses whether Maurice’s pre-existing
condition was the substantial contributing factor leading to his 2015 amputation. In Dowdy—a similar case
concerning a below-the-knee amputation of an insured’s left leg, where the appellant-insured was diabetic and developed osteomyelitis after sustaining
injuries to his left leg in a car accident—the Court of
Appeals observed that the record did not demonstrate
that diabetes was a substantial contributing factor insofar as the experts failed to elaborate on “how much
of a role that [diabetes] played in [appellant’s] failure
to recover,” and because one expert faulted “both
‘comorbidities’ and the ‘type of injury’ ” as the grounds
for amputation. Dowdy, 2018 WL 2223722, at *6. The
record evidence demonstrated that the appellant’s

App. 28
“diabetes was a complicating factor,” but the court observed that it was “not identified as a substantial contributor to the ultimate loss.” Id.
16. Here, Dr. Levin’s first report indicates that
“the claimant’s wounds are directly related to both the
injury to his feet and his poorly controlled diabetes
mellitus,” that the 2008 injury “would have [to] a great
extent of degree [ ] contributed to the claimant’s multiple surgical interventions and health issues,” and that
Maurice’s “glucose levels were not well controlled leading to multiple skin ulcerations, infections, and surgical interventions to include amputations.” AR 391.
Shortly after this initial report, LINA asked Dr. Levin
to “further expand” and explain whether the amputation “was not significantly contributed to by sickness,
disease or bodily infirmity.” AR 374. In response, Dr.
Levin simply opines that Maurice’s “diabetes mellitus
was a contributor to [Maurice’s amputation],” and did
not opine that the diabetes was a significant or substantial contributor to the amputation. AR 375 (emphasis added). Additionally, Dr. Galpin, plaintiffs’
expert, opines that “[t]he glass lacerations started a
tunnel that could not be closed through traversing his
damaged skin barrier. With this alone in a diabetic
with small vessel disease and neuropathy, that was
more than enough to light the wick that eventually
cost him his [below knee] amputation. . . .” AR 2341.
Dr. Galpin further opines that the accidental cuts were
“more likely than not, the cause of his left below-theknee amputation.” AR 2342.

App. 29
17. Unlike Dr. Levin and Dr. Galpin, Dr. Lowe—
LINA’s expert retained for the appeal of LINA’s denial—opines that Maurice’s “uncontrolled diabetes
mellitus significantly contributed to the need for the
. . . amputation.” AR 311. Dr. Lowe notes that, insofar
as the 2008 injuries occurred, “a foot wound from broken glass may be very painful, may even become infected and require antibiotics, and may require specific
wound care for healing . . . [h]owever, in an individual
who does not have uncontrolled diabetes, such a
wound would be very unlikely to result in an amputation.” AR 312. Dr. Lowe further opines that Maurice’s
diabetes and “diabetic neuropathy played key roles in
his inability to heal properly from his wounds, his difficulty overcoming his foot infections, his recurrent
lower extremity infections, and ultimately his left
below knee amputation on 4/30/2015.” Id.
18. Upon review of the record, and in particular,
the above-described expert reports, the Court concludes that the record does not demonstrate that
Maurice’s diabetes was a substantial contributing factor in his 2015 amputation. Though Dr. Lowe opines
that Maurice’s diabetes “significantly contributed” to
the amputation, the two other experts—Dr. Levin and
Dr. Galpin—do not reach this conclusion. To the contrary, in response to LINA’s unequivocal question as to
whether Maurice’s amputation was “significantly contributed to” by sickness or disease, Dr. Levin, LINA’s
own expert, simply opines that the amputation “did
not result directly or independently from his accidental injury. The claimant’s diabetes mellitus was a

App. 30
contributor to the claimant’s [amputation].” AR 375.
Moreover, Dr. Galpin opines that the 2008 injuries
were “in fact, [a] relatively high probability more likely
than not, the cause of his below-the-knee amputation
on April 30, 2015.” AR 2342. Given these contradictory
reports as to the level of contribution of Maurice’s diabetes to the 2015 amputation, and because Dr. Levin
and Dr. Galpin opine that the diabetes was merely a
contributing factor in the amputation, the Court concludes that the record does not demonstrate that Maurice’s diabetes was a substantial contributing factor in
his amputation.3
19. Given the Court’s conclusion that Maurice’s
diabetes did not substantially contribute to his amputation, the next determination is whether the period
between the 2008 accident and the 2015 amputation
bars coverage under Maurice’s AD&D policies. The Policies require that the “Covered Loss” occur within 365
days of the “Covered Accident.” AR 13. Under California’s “process of nature rule,” time limitations such as
these may disregarded if the insured can show that the
3

The Court notes that the Policies also contain an exclusion
for losses that are “contributed to by disease, [s]ickness, mental
or bodily infirmity.” As the Ninth Circuit has observed, exclusions
are construed narrowly under general principles of insurance law,
and the “substantial contribution standard applies in interpreting the concepts of cause and contribution in [an illness or infirmity] exclusion.” See Dowdy, 2018 WL 2223722, at *6. For the
same reasons articulated supra, the Court concludes that the record fails to demonstrate that diabetes substantially contributed
to Maurice’s 2015 loss. Accordingly, the record evidence is insufficient to show that the Policies’ illness exclusions apply to
Maurice’s 2015 amputation.

App. 31
ultimate loss was part of the natural disease process
begun by the accidental injury.4 The process of nature
rule provides that
Within the meaning of policy provisions requiring disability within a specified time after
the accident, the onset of disability relates
back to the time of the accident itself whenever the disability arises directly from the accident within such time as the process of
nature consumes in bringing the person affected to a state of total disability.
Nat’l Life & Accident Ins. Co. v. Edwards, 119 Cal. App.
3d 326 (1981); Willden v. Washington Nat. Ins. Co., 18
Cal.3d 631, 634 (1976). This rule was created to address arbitrary limitations on coverage. See Willden,
18 Cal.3d 631 at 635.
20. LINA argues that the process of nature rule
does not apply because Maurice’s loss can be explained
by other naturally-occurring events common to diabetics. Yet, to the contrary, both Dr. Levin and Dr. Galpin,
as noted supra, agree that the May 2008 injury
4

California’s process of nature rule satisfies the two-part
test set forth in Kentucky Association of Health Plans, Inc. v.
Miller, 538 U.S. 329, 34–42 (2003), which requires that for a state
law to be covered by ERISA’s savings clause, it must (1) be specifically directed toward entities engaged in insurance; and (2) substantially affect the risk pooling arrangement between the
insurer and the insured. See Anderson v. Continental Casualty
Co., 258 F. Supp. 2d 1127 at 1131–32 (reasoning that the process
of nature rule is specifically directed toward the insurance industry and substantially affects the risk pooling arrangement between the insurer and the insured, and concluding that the rule
is therefore saved from preemption by ERISA’s savings clause).

App. 32
resulted in the April 2015 amputation. AR 0391; 2341.
Dr. Galpin further opines that there is a “direct link
beginning with the accident at the hotel, which became
the center and focus of an acute and then chronic infection that led to losing his left lower leg.” AR 2337.
He also notes that the time interval between the 2008
accident and the “amount of damage that occurred . . .
fits well within what chronic osteomyelitis does and
even fits better in what somebody with diabetes, Castleman’s disease, Hodgkin’s, radiation, chemotherapy,
splenectomy, would be expected to do.” AR 2341. And,
as noted, Dr. Levin opines that “[t]he injury that occurred in 2008 would have a great extent of degree [ ]
contributed to the claimant’s multiple surgical interventions and health issues.” AR 391. Moreover, the record supports the conclusion that the 2008 injury
resulted in the 2015 amputation: Maurice regularly
saw Dr. Salhotra between May 2008 and June 2009 for
the non-healing cuts to his feet; Maurice’s left big toe
was amputated in November 2009; over the course of
2010, Maurice’s infection continued to worsen; during
2011, Maurice underwent a “transmetatarsal amputation” on his left foot and numerous debridement procedures; during 2012, Maurice had extensive wound
care; during 2013 through 2014, Maurice underwent
further debridement procedures and wound care; and
in 2015, Maurice’s left foot and lower leg were eventually amputated. Accordingly, upon review of the record
and the expert reports, the Court finds that Maurice’s
2015 amputation relates back to the time of the 2008
swimming pool accident insofar as the accident set into

App. 33
motion—and is directly related to—the later amputation.
21. The final dispute between the parties concerns the amount of benefits payable under the Voluntary and Basic AD&D policies. The parties agree that,
under the schedule set forth in the Policies, the benefits for a “Loss of One . . . Foot” are 50 percent of the
Principal Sum. AR 13; 141. Moreover, the Policies provide that the “Principal Sum, whenever referred to in
this Schedule, means the Employee’s Principal Sum in
effect on the date of the Covered Accident causing the
Covered Injury or Covered Loss unless otherwise specified.” AR 13. Plaintiffs argue that benefits should be
paid according to the amount of coverage in effect in
2015, the date of Maurice’s amputation. LINA contends that the coverage in effect in 2008, the date of
the swimming pool accident, should instead apply.
22. Courts “interpret terms in ERISA insurance
policies in an ordinary and popular sense as would a
[person] of average intelligence and experience.”
Evans, 916 F.2d at 1441. Thus, invoking an ordinary
reading of the “Principal Sum” provision, the Court
finds that the amount of coverage is the coverage “in
effect on the date of the Covered Accident.” The date of
the covered accident is May 22, 2008. The parties do
not dispute that, if 2008 is the applicable coverage
date, the Voluntary Policy coverage is $172,000, Basic
Policy coverage is $30,000, and the total coverage is
therefore $202,000. Because the “Loss of One . . . Foot”
is 50 percent of the Principal Sum, the total benefit
here is $101,000.

App. 34
23. As such, the Court finds that Maurice’s below-knee amputation of his left leg is a covered loss
under LINA’s Voluntary and Basic AD&D policies in
the sum of $101,000.
24. Any conclusion of law that is deemed to be a
finding of fact is hereby adopted as a finding of fact,
and any finding of fact that is deemed to be a conclusion of law is adopted as a conclusion of law.
Dated: June 4, 2018
/s/ Christine A. Snyder
Christina A. Snyder
UNITED STATES
DISTRICT JUDGE

App. 35
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ESTATE OF DAVID MAURICE, Nos. 18-55944,
18-55981, 18-56558
JR.; STACY MAURICE,
Plaintiffs-Appellees,
v.

D.C. No. 5:16-CV2610-CAS-SP

LIFE INSURANCE COMPANY ORDER
OF NORTH AMERICA,
(Filed Apr. 17, 2020)
Defendant-Appellant.
Before: CLIFTON and LEE, Circuit Judges, and
BLOCK,* District Judge.
The petition for panel rehearing is denied. Judge
Lee has voted to deny the petition for rehearing en
banc and Judges Clifton and Block have so recommended. The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. See Fed.
R. App. P. 35. Accordingly, the petition for rehearing en
banc is denied.

* The Honorable Frederic Block, United States District
Judge for the Eastern District of New York, sitting by designation.

App. 36
Appellees’ objection to the bill of costs is sustained.
Each party shall bear its own costs on appeal.

